                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

    Case Number: I06100035                                1            1           1          Page 1 of 1       I
         The Office of Investigations-Office of Inspector General (OIG) initiated an investigation due to
         the significant cost-sharing amount projected by an institution' and because it appeared that the
         institution had not properly certified its cost-sharing amounts during the award.2 Our
         investigation found no fraud but detected deficiencies in the institution's record keeping systems
         pertaining to cost-sharing. The institution acknowledged these deficiencies and notified the OIG
         of its efforts towards correcting them. The OIG sent a letter to the institution reminding it of its
         record keeping obligations and advising that it continue to improve its monitoring and record
         keeping systems regarding cost-sharing. Accordingly, no further action is warranted and
         this case is closed.




I                                                                                                               I1

NSF OIG Form 2 (1 1/02)
